App. 1
2018 PA Super 351
COMMONWEALTH
OF PENNSYLVANIA,
Appellant
v.
WILLIAM R. LANDIS, JR.

: IN THE SUPERIOR
:
COURT OF
PENNSYLVANIA
:
:
: No. 1785 MDA 2017
:

Appeal from the Order Entered October 24, 2017,
in the Court of Common Pleas of Berks County
Criminal Division at No. CP-06-CR-0005405-2009
BEFORE: PANELLA, J., MURRAY, J., AND FORD
ELLIOTT, P.J.E.
OPINION BY
FILED DECEMBER 24, 2018
FORD ELLIOTT, P.J.E.:
The Commonwealth appeals from the October 24,
2017 order denying its petition to reinstate Counts 2
through 4 (third-degree murder and aggravated assault)1 of the underlying criminal information, on the
basis it was barred on retrial by double jeopardy or
laches. After careful review, we are constrained to affirm.
A prior panel of this court summarized the relevant facts of this case as follows:
On October 28, 2009, at approximately 9:20
p.m., Berks County Radio dispatched Spring
Township Police officers to the residence of
1

tively.

18 Pa.C.S.A. §§ 2502(c), 2702(a)(1), and 2702(a)(4), respec-

App. 2
[William R. Landis, Jr. (hereinafter, “Landis”)]
to investigate a possible shooting. A man had
called to report that a woman had been shot.
It was later discovered that the caller was
[Landis]. [Landis’] wife, Sharon Landis, was
found dead from a gunshot wound to the head
on the second floor of the residence. The victim
also had other nonfatal gunshot wounds on
her body. While performing a clearing operation of the residence, officers discovered [Landis] barricaded in the basement. [Landis] had
a knife and two guns in his possession and
threatened to shoot anyone who came down
into the basement. While in the basement,
[Landis] made several telephone calls to family and friends and mentioned his dead wife.
[Landis] became increasingly intoxicated as
the evening progressed. The Berks County
Emergency Response Team was called to the
scene, and [Landis] was eventually taken into
custody after several hours had elapsed.
Commonwealth v. Landis, 102 A.3d 528 (Pa.Super.
2014) (unpublished memorandum at *1, citing trial
court opinion, 8/2/13 at 1-2).
The trial court summarized the procedural history
of this case as follows:
The Commonwealth charged [Landis] with
one count of First Degree Murder (Count 1),
one count of Third Degree Murder (Count 2),
two counts of Aggravated Assault (Counts 3
and 4), Assault on a Law Enforcement Officer
(Count 5), seven counts of Aggravated Assault
(Counts 6 to 10, 14, 17), four counts of Simple

App. 3
Assault (Counts 11, 12, 15, 18), eleven counts
of Reckless Endangerment (Counts 13, 16,
20 to 28), one count of Terroristic Threats
(Count 19), and two counts of Possessing an
Instrument of Crime (Counts 29-30).[2] [Landis] moved to sever Counts 5 through 30,
which involved the standoff between the police and [Landis] during the period the police
officers were negotiating [Landis’] surrender
when [Landis] was in the basement. This
court granted [Landis’] motion to sever the
charges.[3]
At the trial that ended on April 5, 2013, the
jury found [Landis] guilty of only Count 1,
Murder in the First Degree. The jury found
[Landis] not guilty of Count 2, Murder in the
Third Degree, Count 3, Voluntary Manslaughter, and Count 4, Involuntary Manslaughter.
Prior to the closing arguments, the counts for
Voluntary Manslaughter and Involuntary
Manslaughter replaced the two counts of Aggravated Assault. This court polled the jury,
and . . . recorded the verdicts.
The Commonwealth did not file any post-trial
motion to correct the Verdict as permitted by
the Pennsylvania Rules of Criminal Procedure.4 At [Landis’] sentencing, the Commonwealth agreed to withdraw Counts 5 through
2

18 Pa.C.S.A. §§ 2502(a), 2502(c), 2702.1, 2702, 2701, 2705,
2706, and 907, respectively.
3
Landis proceeded to a jury trial on April 1, 2013.
4
On May 15, 2013, the trial court sentenced Landis to a
mandatory term of life imprisonment.

App. 4
30 with the understanding that if [Landis’]
first[-]degree murder conviction was overturned, the Commonwealth would be able to
reinstate those charges.
Trial court opinion, 1/26/18 at 1-2.
On June 10, 2013, Landis filed a timely notice of
appeal. On April 10, 2014, a panel of this court affirmed
Landis’ judgment of sentence, and no further review
was sought with our supreme court. See Landis, 102
A.3d 528. On December 22, 2014, Landis filed a timely
petition pursuant to the Post Conviction Relief Act
(“PCRA”),5 raising multiple claims of trial and appellate counsels’ ineffectiveness. (See PCRA petition,
12/22/14, at 3-4.) On June 29 and 30, 2015, the PCRA
court held evidentiary hearings on this matter. Thereafter, on December 18, 2015, the PCRA court entered
an opinion and order granting Landis a new trial based
on trial counsel’s failure to call expert witness, Dr.
Larry A. Rotenberg, to testify in support of a diminished capacity defense. (PCRA opinion, 12/18/15 at 1017.) The Commonwealth filed a notice of appeal that
same day. On November 30, 2016, a panel of this court
affirmed the PCRA court’s order and our supreme
court denied the Commonwealth’s petition for allowance of appeal on July 24, 2017. See Commonwealth
v. Landis, 159 A.3d 603 (Pa.Super. 2016) (unpublished
memorandum), appeal denied, 169 A.3d 1059 (Pa.
2017).

5

42 Pa.C.S.A. §§ 9541-9546.

App. 5
Thereafter, on August 28, 2017, the Commonwealth filed a petition to reinstate Counts 2 through 4
of the underlying criminal information, third-degree
murder and aggravated assault. As noted, the trial
court entered an order on October 24, 2017 denying the
Commonwealth’s petition. The Commonwealth filed a
timely notice of appeal on November 21, 2017. On December 1, 2017, the trial court directed the Commonwealth to file a concise statement of errors complained
of on appeal, in accordance with Pa.R.A.P. 1925(b). The
Commonwealth filed a timely Rule 1925(b) statement
on December 6, 2017. On January 26, 2018, the trial
court filed its Rule 1925(a) opinion.
The Commonwealth raises the following issues for
our review:
[1.] Did the trial court err by ruling that reinstatement of the charge of third-degree
murder is barred on retrial by double
jeopardy and/or laches?
[2.] Alternatively, did the trial court err by
ruling that [Landis] is permitted to present a diminished capacity defense where
the Commonwealth is barred from retrying [Landis] on the charge of third-degree
murder?
Appellant’s brief at 5 (full capitalization omitted). The
Commonwealth has abandoned its claim that the trial
court erred in determining that the reinstatement of
the aggravated assault charges is barred by laches.
(See id. at n.1).

App. 6
An appeal grounded in double jeopardy raises
a question of constitutional law. This court’s
scope of review in making a determination on
a question of law is, as always, plenary. As
with all questions of law, the appellate standard of review is de novo. To the extent that
the factual findings of the trial court impact
its double jeopardy ruling, we apply a more
deferential standard of review to those findings:
Where issues of credibility and
weight of the evidence are concerned,
it is not the function of the appellate
court to substitute its judgment
based on a cold record for that of the
trial court. The weight to be accorded
conflicting evidence is exclusively for
the fact finder, whose findings will
not be disturbed on appeal if they are
supported by the record.
Commonwealth v. Kearns, 70 A.3d 881, 884 (Pa.Super. 2013) (citations omitted), appeal denied, 84 A.3d
1063 (Pa. 2014).
The Commonwealth first argues that the trial
court erred in concluding that double jeopardy bars the
reinstatement of the third-degree murder charge on
retrial because the underlying verdict was “incorrect”
as a matter of law. (Commonwealth’s brief at 16.) The
Commonwealth avers that,
[a]lthough the jury in the first trial returned
a verdict of not guilty to the third-degree murder charge, the jury found [Landis] guilty of

App. 7
first-degree murder, an offense which contains
all the elements of third-degree murder with
the added element of specific intent to kill[.]
Id. at 21.
The Commonwealth maintains that this is not a
case where it is simply seeking “another opportunity to
supply evidence that it failed to put forth previously[.]”
(Id.) Rather, the Commonwealth contends that it has
already proven “all the elements of third-degree murder as evidenced by the verdict.” (Id. at 14, 18.) Thus,
“double jeopardy should not bar reinstatement of
third-degree murder.” (Id.) In support of this conclusion, the Commonwealth relies on Commonwealth v.
Larkins, 829 A.2d 1203 (Pa.Super. 2003), appeal denied, 870 A.2d 321 (Pa. 2005).
Upon review, we find that Larkins is distinguishable from the instant matter and that the Commonwealth’s reliance on it is misplaced. Larkins involved
a defendant who was convicted of, inter alia, the firstdegree murder of his wife’s alleged paramour and acquitted of the lesser-included offenses of third-degree
murder and voluntary manslaughter of said paramour.
Larkins, 829 A.2d at 1203. Larkins’ direct appeal was
unsuccessful, but he was granted a new trial after he
sought post-conviction relief. Id. at 1204. At his retrial
for first-degree murder, Larkins requested an additional jury instruction on third-degree murder and
voluntary manslaughter. Id. The trial court denied
Larkins’ request on grounds that it would put him
twice in jeopardy for charges of which he had been

App. 8
acquitted. Id. Larkins appealed a second time, arguing
that the jury should have been instructed on the lesser
charges at his second trial. Id. The Larkins court recognized that the double jeopardy clauses did not bar
the jury from being instructed on the lesser-included
offenses because waiver of double jeopardy protections
is theoretically possible, but held that Larkins had
failed to preserve the argument that he could waive
double jeopardy. Id. at 1205-1206.
We recognize that the holding in Larkins implies
that a defendant may waive his double jeopardy rights
in situations where the protections actually harm his
or her interests. See id. at 1203 (opining that defendant could waive double jeopardy in order to have jury
instructed on lesser offense as to which he had previously been acquitted). However, unlike Larkins, this
case does not present a scenario in which Landis would
benefit from waiving his double jeopardy rights, and
Landis did not voluntarily attempt to do so merely by
filing a petition for relief pursuant to the PCRA.
On the contrary, we find that the reinstatement of
the third-degree murder charge in this case is clearly
barred by double jeopardy. “The Double Jeopardy
Clauses of the Fifth Amendment to the United States
Constitution and Article 1, § 10 of the Pennsylvania
Constitution protect a defendant from repeated criminal prosecutions for the same offense.” Commonwealth v. Adams, 177 A.3d 359, 371 (Pa.Super. 2017)
(citation omitted). Our supreme court has summarized
the rationale behind the protections afforded by the
Double Jeopardy Clause as follows:

App. 9
The principle that an acquittal is an absolute
bar to any subsequent prosecution for the
same offense . . . is fundamental and is part of
the fabric which forms the basis of the double
jeopardy prohibition. American double jeopardy jurisprudence affords the utmost finality
to acquittals. In Commonwealth v. Tillman,
[461 A.2d 795 (Pa. 1983)], this Court explained the finality that follows an acquittal
as follows:
[T]he Supreme Court of the United
States has recently observed [that]
the fact[-]finder in a criminal case
has traditionally been permitted to
enter an unassailable but unreasonable verdict of not guilty. [W]e necessarily accord absolute finality to a
jury’s verdict of acquittal—no matter
how erroneous its decision. Thus,
where a defendant has been found
not guilty at trial, he may not be retried on the same offense, even if the
legal rulings underlying the acquittal were erroneous. [T]he law attaches particular significance to an
acquittal. To permit a second trial after an acquittal, however mistaken
the acquittal may have been, would
present an unacceptably high risk
that the Government, with its vastly
superior resources, might wear down
the defendant so that even though innocent, he may be found guilty. So,
too, no prosecution appeal lies from a
not guilty verdict, even where that

App. 10
verdict is based upon an egregiously
erroneous foundation.
[Id. at 767-797.]
Commonwealth v. Ball, 146 A.3d 755, 763-764 (Pa.
2016) (additional citations and quotation marks omitted; some brackets in original).
Here, Landis was tried before a jury on first-degree murder, third-degree murder, voluntary manslaughter, and involuntary manslaughter. The jury
found Landis guilty of first-degree murder but acquitted him of the remaining charges, including thirddegree murder. (Notes of testimony, 4/1-5/13 at 1176.)
The jury’s verdict was accepted and properly recorded
after the jury was polled at the request of Landis’ counsel. (Id. at 1176-1179, 1181.) See also Pa.R.Crim.P.
648(D), (G). The Commonwealth never objected to the
verdict or its recordation, and it failed to file a posttrial motion challenging the verdict. Once a verdict has
been recorded, it is generally not subject to alteration
or correction, and the protections afforded by double
jeopardy attach. See Commonwealth v. McDaniels,
886 A.2d 682, 686-687 (Pa.Super. 2005) (stating, “[i]t
cannot be disputed that a jury’s recorded verdict is inviolate. The established rule is that the verdict as recorded is the verdict of the jury and the latter shall not
be permitted to impeach or to alter or amend it after
their separation or discharge[ ]” (citation and internal
quotation marks omitted)), appeal denied, 903 A.2d
537 (Pa. 2006), cert. denied, 549 U.S. 960 (2006); see
also Commonwealth v. Petteway, 847 A.2d 713, 717

App. 11
(Pa.Super. 2004) (holding that a defendant’s constitutional protection against double jeopardy was violated
when trial judge commanded the jury to return to deliberations after it rendered inconsistent verdicts).
We emphasize that “inconsistent verdicts, while
often perplexing, are not considered mistakes and do
not constitute a basis for reversal.” Petteway, 847 A.2d
at 718 (citations omitted). Rather, “[t]he rationale for
allowing inconsistent verdicts is that it is the jury’s
sole prerogative to decide on which counts to convict in
order to provide a defendant with sufficient punishment.” Kearns, 907 A.2d at 659 n.10 (citations omitted). “When an acquittal on one count in an indictment
is inconsistent with a conviction on a second count, the
court looks upon the acquittal as no more than the
jury’s assumption of a power which they had no right
to exercise, but to which they were disposed through
lenity.” Petteway, 847 A.2d at 718 (citations and internal quotations omitted). Based on the foregoing, the
Commonwealth’s claim that double jeopardy did not
bar reinstatement of the third-degree murder charge
must fail.6

6

In reaching this decision, we are cognizant of our supreme
court’s decision in Commonwealth v. Terry, 521 A.2d 398 (Pa.
1987), cert. denied, 482 U.S. 920 (1987), overruled on other
grounds, Commonwealth v. Frey, 554 A.2d 27 (Pa. 1989), cert.
denied, 494 U.S. 1038 (1990). In that case, our supreme court, in
an exercise of its supervisory powers, expressly disapproved of the
practice of acquitting a defendant of lesser degrees of murder
when the defendant is convicted of the higher degree. See Terry,
521 A.2d at 410 (ordering trial judges “to adopt and enforce procedures in all homicide cases which will prevent the recording of

App. 12
In an alternative argument, the Commonwealth
next contends that Landis should be barred from
presenting a diminished capacity defense on retrial
absent an express waiver of his double jeopardy protections. (Commonwealth’s brief at 22.) In support of
this contention, the Commonwealth maintains that,
[t]he affirmative defense of diminished capacity due to voluntary intoxication requires
that a criminal defendant concede liability for
third-degree murder. By pursuing a diminished capacity defense, [Landis] is asking the
jury to find him guilty of third-degree murder.
However, by asserting that third-degree murder is barred by double jeopardy, [Landis] endeavors to circumvent the requirements for
advancing a defense of diminished capacity.
Id. at 14-15.
Our supreme court has long recognized that the
question of “whether a defendant has established that
his faculties and sensibilities were so overwhelmed
with drugs so that he could not form the specific intent
to kill is a question of fact solely within the province of
the jury[.]” Commonwealth v. VanDivner, 962 A.2d
1170, 1177 (Pa. 2009) (citations and internal quotation
marks omitted), cert. denied, 559 U.S. 1038 (2010).
“[T]he defense of diminished capacity is a matter for a
a jury verdict of not guilty on lesser included degrees of homicide
when the jury returns a guilty verdict on a higher degree[ ]”). Instantly, neither the trial court nor the district attorney followed
the direction from our supreme court; and as a result, the Commonwealth has no recourse.

App. 13
jury to believe or disbelieve as it sees fit.” Id. (citation
omitted).
Upon careful review, we find that discussion of this
particular issue would be premature at this point and
defer to the trial court on retrial as to whether the
parties may present evidence on Landis’ diminished
capacity and the extent to which the jury should be instructed as to its admissibility. A new trial was granted
on the basis of the ineffectiveness of original trial counsel. This ruling does not predispose any evidentiary issue on retrial.
For all the foregoing reasons, we affirm the trial
court’s October 24, 2017 order denying the Commonwealth’s petition to reinstate Counts 2 through 4
(third-degree murder and aggravated assault) of the
underlying criminal information.
Order affirmed.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 12/24/2018

App. 14
IN THE SUPERIOR COURT OF PENNSYLVANIA
MIDDLE DISTRICT
COMMONWEALTH
OF PENNSYLVANIA
Appellant
v.
WILLIAM R. LANDIS, JR.

:
:
:
:
:
:

No. 1785 MDA 2017

ORDER
(Filed Mar. 5, 2019)
IT IS HEREBY ORDERED:
THAT the application filed January 7, 2019, requesting reargument of the decision dated December 24,
2018, is DENIED.
PER CURIAM

App. 15
COMMONWEALTH
OF PENNSYLVANIA

:
:
:
vs.
:
WILLIAM R. LANDIS, JR., :
:
Defendant
:

IN THE COURT OF
COMMON PLEAS OF
BERKS COUNTY,
PENNSYLVANIA
CRIMINAL DIVISION
No. CP-06-CR-5405-2009

ORDER
AND NOW, this 24 day of October, 2017, after
consideration of the Commonwealth’s Petition to Reinstate Counts 2-4 of the Criminal Information and
briefs of counsel, it is hereby ORDERED the petition is
denied for the following reasons:
1.

Commonwealth v. Larkins, 829 A.2d 1203 (Pa.
Super. 2003) is inapplicable in the case sub
judice. Defendant, William R. Landis, Jr., unlike Mr. Larkins, has not waived the bar of
double jeopardy.

2.

Mr. Larkins was found not guilty of the lesser
included offenses. The trial court determined
that a retrial on the offenses in which there
were not guilty verdicts was barred by double
jeopardy. Mr. Larkins, however, waived his
protection against the Commonwealth’s retrial on those charges. The Pennsylvania Superior Court ruled that Mr. Larkins was
entitled to waive his protection against double
jeopardy. Mr. Landis is not waiving his protection.

App. 16
3.

The jury was polled. Commonwealth asked for
the recordation of the said verdict and never
requested that it be amended before or after
it was recorded until now. Laches has now attached.

4.

Count 2 of the Information on which defendant was tried was Murder of the Third Degree (18 Pa. C.S.A. § 2502(c) and Counts 3 and
4 of the Information were charges of Aggravated Assault (18 Pa. C.S.A. § 2702). At trial,
Count 3 was replaced by Voluntary Manslaughter (18 Pa. C.S.A. § 2503) and Count 4
was replaced by Involuntary Manslaughter
(18 Pa. C.S.A. § 2504). The Commonwealth
never asked for the reinstatement of the
original charges of Aggravated Assault. The
reinstatement of these charges is barred by
laches.

5.

This ruling is conditional upon Mr. Landis, in
open court under oath, affirming this defense
strategy, that he understands full well that
A) He waives being charged with lesser included offenses of Third Degree Murder,
Voluntary Manslaughter, and Involuntary Manslaughter in his jury trial scheduled to commence on February 26, 2018.
He will be tried on the sole count of Murder of the First Degree.
B) The hearing before the undersigned when
defendant will be asked if he agrees with
this defense strategy will be conducted
in Courtroom 9, 9th floor, Berks County

App. 17
Courthouse on November 9, 2017 at 1:30
P.M.
BY THE COURT:
/s/ Jeffrey K. Sprecher, J.
JEFFREY K. SPRECHER, J.

App. 18
COMMONWEALTH
OF PENNSYLVANIA

: IN THE COURT OF
: COMMON PLEAS OF
: BERKS COUNTY,
VS.
: PENNSYLVANIA
WILLIAM R. LANDIS, JR., :
CRIMINAL DIVISION
:
Defendant
: No. CP-06-CR-5405-2009
OPINION,
JANUARY 24, 2018
JEFFREY K. SPRECHER, J.
This case has a ten year history, including two
former appeals by the Commonwealth to the rulings
made by this court. The Commonwealth now files its
third appeal, this time to the Order dated October 24,
2017 that denied its Petition to Reinstate Counts 2 to
4 of the Criminal Information. This Opinion is filed
pursuant to Pa. R.A.P. 1925.
FACTS
Defendant was charged by Information with multiple alleged crimes resulting from an incident that
began in the evening of October 28, 2009. Defendant
was accused of shooting and killing his wife, Sharon
Landis, and then retreating into the basement of his
home where police spent approximately eight hours
attempting to take defendant into custody. Defendant
ultimately surrendered a little after 5:00 a.m. on October 29, 2009.
The Commonwealth charged defendant with one
count of First Degree Murder (Count 1), one count

App. 19
of Third Degree Murder (Count 2), two counts of Aggravated Assault (Counts 3 and 4), Assault on a Law
Enforcement Officer (Count 5), seven counts of Aggravated Assault (Counts 6 to 10, 14, 17), four counts of
Simple Assault (Counts 11, 12, 15, 18), eleven counts of
Reckless Endangerment (Counts 13, 16, 20 to 28), one
count of Terroristic Threats (Count 19), and two counts
of Possessing an Instrument of Crime (Counts 29-30).
Defendant moved to sever Counts 5 through 30, which
involved the standoff between the police and defendant
during the period the police officers were negotiating
defendant’s surrender when defendant was in the
basement. This court granted defendant’s motion to
sever the charges.
At the trial that ended on April 5, 2013, the jury
found defendant guilty of only Count 1, Murder in
the First Degree. The jury found defendant not guilty
of Count 2, Murder in the Third Degree, Count 3, Voluntary Manslaughter, and Count 4, Involuntary Manslaughter. Prior to the closing arguments, the counts
for Voluntary Manslaughter and Involuntary Manslaughter replaced the two counts of Aggravated Assault.
This court polled the jury, and, at the Commonwealth’s
request, recorded the verdicts.
The Commonwealth did not file any post-trial
motion to correct the Verdict as permitted by the
Pennsylvania Rules of Criminal Procedure. At defendant’s sentencing, the Commonwealth agreed to withdraw Counts 5 through 30 with the understanding
that if defendant’s first degree murder conviction was

App. 20
overturned, the Commonwealth would be able to reinstate those charges.
This court denied defendant’s post-trial and postsentence motions. The appellate court denied defendant’s direct appeal. Defendant’s PCRA petition claimed
ineffective assistance of trial counsel and a layered
claim of ineffective assistance of appellate counsel.
This court granted defendant relief under his PCRA
petition and ordered a new trial. The Commonwealth
appealed, and the Superior Court denied the Commonwealth’s appeal; the Pennsylvania Supreme Court denied allocatur.
The Commonwealth, only in September 2017,
sought to reinstate Counts 2 through 4 of the Criminal
Information. This court denied the reinstatement of the
charges by Order of October 24, 2017. The Commonwealth appeals this Order.
ISSUES
The Commonwealth raises the following issues
in its Concise Statement of Errors Complained of on
Appeal.
1. Whether this court erred by ruling that reinstatement of the charge of 3rd degree murder (18 Pa.
C.S.A. § 2502(c)) is barred on retrial by double jeopardy
and/or laches?
2. Whether this court erred by ruling that reinstatement of the charges of aggravated assault (18 Pa.

App. 21
C.S.A. § 2702(a)(1) and (a)(4)) is barred on retrial by
laches?
3. Alternatively, whether this court erred by ruling that the defendant is permitted to present a diminished capacity defense where the Commonwealth is
barred from retrying the defendant on the charge of
3rd degree murder?
DISCUSSION
The Commonwealth’s first two contentions are
this court erred by ruling that the charges of third
degree murder and aggravated assault are barred on
retrial by double jeopardy and/or laches. These issues
are without merit.
Both the United States and Pennsylvania Constitutions bar a second prosecution for the same offense
after an acquittal. The Commonwealth contends that
double jeopardy does not apply where a verdict is “incorrect” as a matter of law. The Commonwealth cites
the case of Commonwealth v. Larkins, 829 A.2d 1203
(Pa. Super. 2003) as controlling law. Larkins held that
although the jury in the first trial had acquitted defendant of lesser included offenses while convicting
him of the greater offense of first degree murder, double jeopardy did not bar the jury from considering
lesser included offenses upon the retrial for the first
degree murder charge. A bar on the retrial following
acquittal was limited to circumstances where a second
trial would merely afford the prosecution the opportunity to present evidence that it had failed to put

App. 22
forth at the first trial, and a jury’s return of the verdicts of acquittal on the lesser included offenses in the
first trial was improper. Mr. Larkins waived the issue
of whether he was entitled to waive double jeopardy on
the lesser included offenses in the second trial.
In the case sub judice, unlike Mr. Larkins, defendant has not waived the issue of double jeopardy. Moreover, as stated in the Opinion of October 24, 2017, this
court also found that laches had attached to the instant case. Significantly, upon request, this court polled
the jury on April 5, 2013. The Commonwealth then requested the recordation of the verdicts as determined
by the jury. It never sought any amendment of the verdicts either before or after recordation until more than
four years after the verdicts. For these reasons, this
court denied the reinstatement of all of the charges for
which defendant had been acquitted.
The Commonwealth’s third assertion is an alternative complaint that this court erred by ruling that
defendant is permitted to present a diminished capacity defense but the Commonwealth is barred from retrying defendant on the charge of third degree murder.
This issue is meritless.
This court found, and the Superior Court affirmed,
that defendant’s trial counsel were ineffective for failing to present evidence of a diminished capacity defense that they had in their possession. Counsel’s
ineffectiveness entitled defendant to a new trial on the
charge of first degree murder.

App. 23
Defendant, however, was already tried on the
charge of third degree murder and was acquitted. The
Commonwealth failed to raise an objection to the jury’s
third degree murder acquittal and has evidently been
satisfied with this verdict until now. Double jeopardy
does not dissolve because the Commonwealth is now,
more than four years later, dissatisfied with the previous verdict.
In accordance with the foregoing Opinion, this
court submits that its Order should be affirmed and
the Commonwealth’s appeal denied.
BY THE COURT:
/s/ Jeffrey K. Sprecher, J.
JEFFREY K. SPRECHER, J.

App. 24
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
COMMONWEALTH
OF PENNSYLVANIA,

: No. 192 MAL 2019
: Petition for Allowance
: of Appeal from the Order
Petitioner
: of the Superior Court
v.
:
WILLIAM R. LANDIS, JR., :
:
Respondent
ORDER
PER CURIAM
AND NOW, this 4th day of September, 2019, the
Petition for Allowance of Appeal is DENIED.
Justice Wecht did not participate in the consideration or decision of this matter.

